/

No.

m
i-

£

IN THE

<r.

SUPREME COURT OF THE UNITED STATES
^P^cSUnTuT-filed

^AR-v 2020
In re CYRUS LINTON BROOKS,

^SSOfTHEOS,*

Petitioner,
-vsRANDALL R. HEPP,
Respondent.

ON PETITION FOR A WRIT OF MANDAMUS TO
THE SEVENTH CIRCUIT COURT OF APPEALS

PETITION FOR AN EXTRAORDINARY WRIT
Mr. Cyrus Linton Brooks [DOC 356756-A]
Fox Lake Correctional Institution
Post Office Box 200 / F.L.C.I.
Fox Lake;

Wisconsin.

53933

!

i

!
/
;
i
/

QUESTIONS PRESENTED FOR REVIEW

1.]

Did The Review Treatment Accorded The Request For
The Issuance Of A Certificate Of Appealability By
A Circuit Judge, Fail To Satisfy The Appearance Of
Justice. In Consideration Of A Thirty-Two(32) Page
Request Pleading, Breaking Down Each Individual
Issue Question Sought Appellate Review On, Into A
Demonstration Of Different Circuit Court(s) Of
Appeals And District Court [Judge's] Disputed Con­
clusions) By Petitioner In His Showing That Such
Issue(s) Were Debatable By Jurist Of Reason?:

2.]

Does An Appellant Have A Procedural Due Process
Protection Entitlement To A Fundamental Fair
Detailed Decision Address To The Review Applica­
tion Actuality Regarding Appellants' Issue(s)
In Support Of The Request For The Issuance Of A
Certificate Of Appealability Consideration Under­
taking By The Circuit Court Judge?

i.

LIST OF PARTIES
A list of all parties to the proceeding in the court(s)
whose Judgment and Order(s) are the subject of this Petition are
as follows:

1.]

Petitioner-[Prisoner] Cyrus Linton Brooks [DOC #356756-A].
Fox Lake Correctional Institution
Post Office Box 200 / F.L.C.I.
Fox Lake;
Wisconsin.
53933

2.]

Mr. Randall R. Hepp, Warden.
Fox Lake Correctional Institution
Post Office Box 200 / Administration.
Fox Lake;
Wisconsin.
53933

ii.

TABLE OF CONTENTS
PETITION FOR AN EXTRAOEDINARY WRIT, STATEMENT
OF RELIEF SOUGHT THEREBY......................................

1.

OPINIONS BELOW

1.

JURISDICTION

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2.

STATEMENT OF THE CASE WITH INCLUDED RELEVANT FACTS.

3.

BASIS FOR FEDERAL JURISDICTION____________

33.

REASON[S] FOR GRANTING EXTRAORDINARY WRIT..

33.

REASON[S] FOR THE EXTRAORDINARY WRIT REMEDY

37.

CONCLUSION............................................................

39.

INDEX TO APPENDICES
APPENDIX-A:

United States Court Of Appeals For The Seventh
Circuit, December 03, 2019 Filed Order Denying
Issuance Of Requested Circuit Judge Certificate
Of Appealability.

APPENDIX-B:

United States District Court For The Eastern
District Of Wisconsin, Green Bay Division,
March 11, 2019 Decision And Order Denying
28 U.S.C. §2254 Petition For Writ Of Habeas
Corpus, With Included Pre-Emptive Denial Of
Issuance Of Certificate Of Appealability By
District Court Judge, William C. Griesbach.

APPENDIX-C:

United States District Court For The Eastern
District Of Wisconsin, Green Bay Division,
March 11, 2019 Judgment In A Civil Case, Filed
In Cyrus Linton Brooks v. Randall R. Hepp, Case
No. D-C-1718 (Docket Item #27).

APPENDIX-D:

State Of Wisconsin, Milwaukee County Circuit
Court, Branch #29, November 21, 2011 Filed
Judgment Of Conviction, In The Criminal Case
Of State Of Wisconsin v. Cyrus Linton Brooks
Case No. 2011-CF-001651.

APPENDIX-E:

State Of Wisconsin, Milwaukee County Circuit
Court, Branch #38, Decision And Order Denying
Motion For Postconviction Relief During The
Defendants First Appeal Of Right, §974.02 Wis.
Stats., Exercise By Appointed Counsel Sara Roemaat Representation Undertaking, Dated October
04, 2013 by the Honorable (Jeffrey A. Wagner.
iii.

APPENDIX-F:

State Of Wisconsin, Court Of Appeals, District
#1, First Appeal Of Right Decision, Filed on
September 30, 2014. Regarding the Issue(s) Of
Appointed Appellate Counsel, Sara Roemaat's
Litigation Selection In Cyrus Linton Brooks v.
State Of Wisconsin, Appeal No. 2013AP2260-CR.

APPENDIX-G:

State Of Wisconsin, Supreme Court, §809.62 ApelIjate Rule “Petition For Review" of the Court Of
Appeals, District #1, 09/30/2014 Decision. Denied
February 10, 2015.

APPENDIX^/1:

Letter Demand From Defendant Cyrus L. Brooks, Dated
July 02, 2013 Listing Claim(s) And Issues) To Be
Litigated During First Appeal Of Right,“In Order
To Preserve Said Claim(s) And Issuers) For §2254
Federal Review, Pro Se By Defendant Once Counsel
Was No Longer Allowed To Represent This Criminal
Action Of Right, Sent To Attorney Sara Roemaat.

APPENDIX-H:

Milwaukee Police Department, Supplemental Police
Report, Dated 10/29/05, Incident #05-302-0135/
M4372. Regarding Forensic Footprint Evidence Dis­
covery/gathering Documentation By I.D. Tech. Michelle
Hoffman, With Included [Exculpatory] Occurrence Wit­
ness Statement Of Kathleen Tramell, Regarding Shoot­
ing And Individual With Long Gun Commission Thereof,
Traverse Of Auto, Leaving Footprint Forensic Evid­
ence, With Photo Of Area Documentation.

APPENDIX-I:

Letter Of [Substitute] Assistant District Attorney
Grant Huebner, Dated June 07, 2011, Seeking Con­
sideration For Last Minute Preliminary Hearing Sur­
prise Prosecution Witness Doniel Carter, Testimony
Creation That Was Employed To Secure Defendant Cyrus
L. Brooks Bind Over For Trial, Consideration That Was
Never Told To The Defense Or The Preliminary Court '
Judge, Sophistically Withheld.

APPENDIX-J:

State Of Wisconsin, Milwaukee County Circuit Court,
Branch #15, April 18, 2016 Decision And Order Deny­
ing Motion For §974.06 Wis. Stats., Collateral PostConviction Motion Relief, In The Pro Se Litigation
Of State Of Wisconsin v. Cyrus Linton Brooks, Case
No. li-CF-O0l651, The Honorable J.D. Watts, Presiding Circuit Court Judge, Asserting Wisconsin Limited
Review Allowance Of Only "Clearly Stronger" Standard
Allowance In Situations Such As This.

APPENDIX-K:

State Of Wisconsin, Court Of Appeals, District #1,
Collateral Post-Conviction Motion Relief Denial,
Appellate Review Litigation, Opinion And Order Filed
August 03, 2017 In The Appeal Of Cyrus Linton Brooks
v. State Of Wisconsin. Appeal No. 2016AP974. Denying
Relief, Stating that Only The "Clearly Stronger" Re­
view Standard Is Permitted Under State Law.
iv.

APPENDIX-L:

State Of Wisconsin, Court Of Appeals, District #1,
Order By Presiding Judge, Curley, Granting Allow­
ance For [Forensic] Footprint Evidence To Be Filed
As Part Of The Appellate Review Record. Since No
Evidentiary Development Opportunity Was Granted In
The Circuit Court, §974.06 Wis. Stats., Collateral
Post-Conviction Review Of The Pro Se Motion Issue
Thereon, In The Case Of Cyrus L. Brooks v. State Of
Wisconsin, Appeal No. 201&AP974, Dated July 26, 2016.

APPENDIX-M:

State Of Wisconsin, Supreme Court, §809.62 Appellate
Rule "Petition For Review" Of The Court Of Appeals,
District #1., August 03, 2017 Opinion And Order Deny­
ing Appeal In Cyrus Linton Brooks v. State Of Wiscon­
sin, Appeal No. 2016AP974, Filed November 13, 20l7.

APPENDIX-N:

28 Ui'S.C. §2254 Petition, Respondent "Answer" Filing
Opposing A Petition For Writ Of Habeas Corpus, In the
Case Of Cyrus Linton Brooks v. Randy Hepp, E.D. Wis.
§2254 Case No. 17-C-i7lS (Docket Item #10), "Cause
And Prejudice" Issue Submission To The State Court
§974.06 Wis. Stats., Collateral Post-Conviction,
Pro Se Motion Litigation Undertaking(s), As Ground
SevenT7) Of The §2254 Petition Submission.

APPENDIX-0:

Milwaukee County Medical Examiner Office, October
30, 2005 "Autopsy Protocol, Executed By K. Alan Stormo
M.D., Assistant Medical Examiner, On The Body Of Terry
J. Baker [DOB: 05/27/1984].

APPENDIX-P:

Milwaukee County Assistant District Attorney, Denis
J. Stingl, September 27, 2011 Filed "State's Witness
List," In The Criminal Case Prosecution Of State Of
Wisconsin v. Cyrus Linton Brooks, Criminal Case #o.
2011CF661651, Listing Dr. Brian Peterson, As The ;
Medical Examiner, Citizen Witness To Appear.

APPENDIX-Q:

Milwaukee County Assistant District Attorney, Denis
J. Stingl, September 27, 2011, "Notice Of Expert
Testimony" Witnesses, Listing Milwaukee County Medi­
cal Examiner, Dr. Brian Peterson, As The Expert That
Will Testify To The Autopsy And The Contents Of The
Written Autopsy Protocol, In The Case Prosecution Of
State Of Wisconsin v. Cyrus Linton Brooks, Criminal
Case No. 2011CF001651, DA Case No. 2011ML005159.

v.

V

€

No.

IN THE
SUPREME COURT OF THE UNITED STATES

In re CYRUS LINTON BROOKS,
Petitioner,
-vsRANDALL R. HEPP 5
Defendant.

ON PETITION FOR A SUPERVISORY WRIT TO
THE SEVENTH CIRCUIT COURT OF APPEALS

PETITION FOR AN EXTRAORDINARY WRIT
Mr. Cyrus L. Brooks [DOC #356756-A]
Fox Lake Correctional Institution
Post Office Box 200 / F.L.C.I.
Fox Lake;

Wisconsin.

53933

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR AN EXTRAORDINARY WRIT
Petitioner respectfully prays that a Extraordinary [Mandamus]
Writ issue under this United States Supreme Courts [Supervisory]
Powers to review the Order Denying Petitioner-Appellant the
Issuance of a Certificate Of Appealability, allowing review of
the District Courts, Denial of the Constitutional Claim(s) on
their alleged [Merits], even though said Claim(s) had been Denied
Review on their Merits During The State Of Wisconsin, Collateral
§974.06 Wis. Stats., Post-Conviction Review

Venue Exhaustion.

Thus requiring the United States Court Of Appeals for the Seventh
Circuit, To Re-Consider the Request For The Issuance Of A Certifi­
cate Of Appealability, Therefrom, Issuing a Decision On Each of
the Individual Issue(s) Raised in the Request, As To How The Court
Of Appeals Reached Its Conclusion That No Reasonable Judge Could
Dispute The Decision Thereon Reached By The United States District
Court Judge For The Eastern District Of Wisconsin (Appendix: A and
B-B/10).
OPINIONS BELOW
A.]

Case(s) From Federal §2254 Court(s):

The PLRA 28 U.S.C. §2253 ORDl^'[Denying Issuance of a
r
Certificate Of Appealability], By United States Court Of Appeals
For The Seventh Circuit, Chief Judge Diane P. Wood and Circuit
Judge Michael S. Kanne (Appendix - A), Dated [December 03, 2019].
Which is Attached hereto as Appendix - A to the Petition and is
Unpublished.
1.

The Opinion of the United States District Court for the
Eastern District of Wisconsin, the Honorable William C. Griesbach,
Chief Judge presiding, Dated [March 11, 2019] appears at Appendix
B to this Petition and is unpublished.
The Judgment In A Civil Case of the United States District
Court for the Eastern District of Wisconsin, the Honorable William
C. Griesbach Chief Judge presiding, Filed [March 11, 2019] appears
at Appendix C to this Petition and is unpublished.
JURISDICTION
B. ] For Cases From Federal Court(s):
The date on which the United States Court of Appeals for
the Seventh Circuit Issued its 28 U.S.C. §2253 Order, Denying the
Circuit Judge Level Issuance Of A Certificate Of Appealability was
December 03, 2019 (Appendix - A). No petition for rehearing was
timely filed in this case.
The Jurisdiction of the United States Supreme Court is
invoked under 28 U.S.C. §1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
This case involves Article T of the United States Constitution
Section #9 "Restrictions On Congress" which Provide:
"The Privilege Of The Writ Of Habeas Corpus Shall Not Be
Suspended, Unless When In Cases Of Rebellion Or Invasion The Public
Safety May Require It."
This case also involves Amendment V., of the United States
Constitution, which provides:
"No person shall be held to answer for a capital or other­
wise infamous crime, unless on a presentment or indictnent of a
grand jury, except in cases arising in the land or naval forces, or
in the militia, when in actual service in time of war or public
2.

danger; nor shall any person be subject for the same offense to
be twice put in jeopardy of life or limb; nor shall be compelled
in any criminal case to be a witness against himself; nor be
deprived of life, liberty, or property, without due process of
law; nor shall private property be taken for public use, without
just compensation.
Additionally this case involves Amendment XIV of the United
States Constitution:
Section 1. All persons born or naturalized in the United
States ? and subject to the jurisdiction thereof, are citizens of
the United States and of the State wherein they reside. No State
shall make or enforce any law which shall abridge the privileges
or immunities of citizens of the United States; nor shall any
State deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its jurisdiction
the equal protection of the laws.
STATEMENT OF THE CASE
On April 15, 2011, Petitioner Cyrus L. Brooks was charged
with First Degree Reckless Homicide as a Party To A Crime in viola­
tion of Wisconsin State Law. The Charge arose out of the homicide of
Terry Baker on October 29, 2005. The Victim died from alleged [Four]
Bullet Wounds.
Police interviewed available witnesses such as Michael Hender­
son who stated that he observed Terry Baker riding his bicycle in
the area and heard gunshots coming from the front of a residence.
When he looked out the window, he recognized Terry Baker and another individual he knew as Maurice Stokes, and another unknown individual pointing a handgun in the direction of Terry Baker. He
then observed both Maurice Stokes and the second individual fire
their weapons toward Terry Baker. Additionally, Terry Baker also
was armed with a handgun, but he was unaware whether Terry Baker
was also firing his handgun back at the Two(2) Individuals.
Milwaukee City Police additionally interviewed Julius Turner,
whom at the time of the shooting, declared that he had not witnessed
anything. However, Five(5) Years Later, Julius Turner is alleged to
3.

have had a sudden instant recall, in which he stated that he was
driving his car in the neighborhood (even though to this day no
vehicle has been found that was registered to him in this state),
when he heard numerous gunshots i. That he then observed Mautice
Stokes standing near a Gree Car with bullet holes holding a handgun.
Further, he never actually saw Stokes firing the handgun though. He
additionally, allegedly observed Cyrus Brooks chasing after Terry
Baker with a Long Gun (Rifle), that he then observed Brooks fire a
shot at Baker as he flipped over a fence, but that he could not tell
whether or not Baker had been hit. That he then walker over to where
Terry Baker was laying on the ground bleeding.
Cyrus L. Brooks on April 25, 2011 was brought to Court for a
Preliminary Hearing. The Prosecution offered Michael Henderson as
its Primary Witness of both Maurice Stokes and Cyrus L. Brooks in­
volvement in the shooting death of Terry Baker on October 29, 2005.
Michael Henderson testified that he saw Maurice Stokes chasing Terry
Baker on October 29, 2005, that he further heard a shot but did not
actually witness it. Henderson additionally testified that Defendant
Stokes had a gun and he personally witness Stokes fire the gun to­
wards Terry Baker. However, he explicitly noted that he did not see
anyone else firing a gun at that time. Michael Henderson personally
confirmed that Terry Baker had been killed, after the gunshot, be­
cause he personally saw the body. Additionally, that he did not see
anybody else in that yard besides Stokes and Terry Baker's body.
To this day, Michael Henderson has never identified Cyrus Brooks as
being present during the chase, shooting or aftermath of Terry Bakers'
homicide.
After the Testimony of Michael Henderson at the April 25, 2011.
Maurice Stokes was bound over fot Trial. Brooks
4.

case was continued

over to allow the Prosecution to either secure the presence of
Julius Turner (whom had failed to appear at the April 25

2011

Preliminary Hearing as he had promised he would).
On May 09, 2011 at the continued Preliminary hearing proceed*;
ing. Again after Prosecution Witness Julius Turner, and no other
individual being able to place Defendant Cyrus Brooks at the shoot­
ing ncident involving Terry Baker on October 29, 2005. The Court
again granted another continuance to the State Prosecution, after
allowing it to present none relevant testimony as to what type of
Shell Casing were recovered at the crime scene.
The Preliminary hearing was then continued to June 01, 2011,
which at once again the Prosecution alleged "Coopertive" Witness
Julius Turner still failed to appear. The Court, based upon a
claim by the "Substituting" Assistant District Attorney, whom was
filling in for the Assigned Assistant District Attorney to this
case prosecution, that he couls secure a Witness willing to place
Defendant Brroks at the crime Scene if granted a few hours continu­
ance. Was then Granted a "Continuance" from this A.M., Court pro­
ceeding, until later that afternoon, to secure someone that could
place Defendant Cyrus Brooks at the crime Scene.
At the 1:30 P.M., hearing continuation proceeding, ADA Grant
Hurbner, mysteriously came up with a Jailhouse Informant, that
claimed Defendant Brooks had confessed his sins to him (his commis­
sion of this homicide), when they happen to be in a holding cell
together for a few hours, on some unkhown day in the past. The
Circuit Court Judge, concluded this Informant Testimony met Wis­
consin "Preliminary" Hearing Evidence Level to acquire a Bind-Over
for trial, and bound Defendant Cyrus L. Brooks over for trial.
At a Pretrial Conference held on September 20, 2011, Defense
5.

Counsel, informed the Prosecutor, and Trial Court Judge, that the
Defense would be that of the Witness for the Prosecution at the
Initial April 25, 2011 Preliminary Hearing, Michael Henderson,
whom would be testifying to the fact that Defendant Cyrus L. Brooks
was not one of the individuals he eye witnessed at the scene of the
crime, homicide death of Terry Baker on October 29, 2005.
On October 03, 2011, the State Prosecutor, requested an Adjourn­
ment because the Prosecution only witness against Defendant Cyrus L.
Brooks, Julius Turner was still failing to appear for the State.
The court granted the Brooks case adjournment for One(l) Week.
On October 10, 2011 the Trial began, after the Trial Judge al­
lowed the Prosecutor a Last Minute Motion To Severe the case from
the Co-Defendant Maurice Stokes, thereby, eliminating the Prosecut­
ion calling of the [Exculpatory] Witness for Co-Defendant Brooks,
Michael Henderson (The Prosecutor was aware that Defense Counsel
had slipped up in his obligation for securing the appearance of
a Defense Witness and not had Michael Henderson served with a Defense
Witness Subpoena. Defense Counsel strongly objected to this last
minute severance, since it would deprive the defense of an extremely
important exculpatory witness, Michael Henderson, because Counsel
had not sent out a Defense Witness Subpoena since these Witnesses
were already being called by the Prosecution in this joint trial.
Defense Counsel sought at least a One(l) Day adjournment to
secure a subpoena Michael Henderson for the Defense, but the Trial
Judge was not in the mood to grant such an adjournment for the De­
fense, but had shown in the past that he had no problem granting
the prosecution, adjournment after adjournment (April 25

2011 to

May 09, 2011; May 09, 2011 to June 01, 2011; June 01, 2011 A.M., to
June 01, 2011 P.M., and October 03, 2011 to October 10, 2011).
6.

Initially after a 2-Day Trial, the Jury came in Hung. However,
after an Allen Charge, where the Judge pointed out over and over
the Jurors' duty to reach a verdict in this case, the Jury on
October 13, 2011 came back with a Conviction for the First Degree
Reckless Homicide Charge, as a Party To A Crime (Appendix - D).
On November 18, 2011 the Court then imposed a Sentence on
30-Years of Initial Confinement under the Truth-In-Sentencing
Scheme Operations, with an additional 08-Years of Extended Super­
vision for a Total Sentence of 38-Years (Wisconsin's Intentional
First Degree Homicide Charge carries a Life Sentence, with Extended
Supervision Release Allowance after 20-Years of Initial Incarcera­
tion), Defendants' Brooks, 1st Degree Reckless Homicide Sentence
is 10-Years Greater than the Worst Homicide action under State
Law allowance charging scheme.
Defendant Cyrus Brooks, with State Public Defender Office
Appointed, 1st Appeal of Right Counsel Assignment, by Sara Romaat,
filed a §974.02 Wis. Stats., First Appeal of Right required PostConviction Motion, raising Issue(s) not properly raised at Trial
and/or during the Post-Conviction but Pre-Sentencing period. Milwau­
kee County Circuit Court Judge Jeffrey Wagner was assigned to handle
this Post-Conviction Review litigation, even though under State
Statutory Law, the Trial Judge was required to Review such First
Appeal related §974.02 Wis. Stats., Post-Conviction Motion, which
was Milwaukee County Circuit Court Judge, Richard J. Sankovitz
(Appendix-D/1 and Appendix - E).
In this Post-Conviction Motion of Defendant Brooks First Appeal
of Right, Counsel over Defendants Written Objections, Raised only
the Issues of: 1.] Defendant Brooks, Speedy Trial Rights were violat­
ed, Which the Post-Conviction Court determined under State Law was
7.

(harmless) since the only relief provided under State Statutory
Law Speedy Trial provision was for Release on Signature Bonds, a
relief that Defendant Brooks was not eligible to receive since de­
fendant Cyrus L. Brooks was already incarcerated for a Parole Viola­
tion incident in another case matter (App. E/1); 2,] First Appeal
of Right Appointed Attorney, Sara Roemaat

further raised the

Issue of Ineffective Assistance of Trial Counsel, regarding Retained
Defense Attorney, Patrick Flanagan's failure to have subpoena Mich­
ael Henderson, as a Defense Witness at Trial. Which regarding the
1st Appeal of Right, §974.02 Wis. Stats., Post-Conviction Court
Judge, denied Defendant any Evidentiary Hearing,.Defense Counsel
Testimony gathering opportunity, which is required under Wisconsin
State Precedent procedural address of a claim of Ineffective Assist­
ance of Trial Counsel, thus even after concluding; "Evidently, trial
counsel thought the State was going to call Michael Henderson at
trial, but the State indicated it could prove its case without him
(with a grant receipt to sever the Co-Defendant Maurice Stokes from
Defendant Brooks prosecution). The Court then held that Brooks did
not show that even with such an exculpatory evidence witness testi­
mony a reasonable probability that, but for his counsel's unprofess­
ional errors, the result of his trial would have been different
(App. E/4-E/7). Lastly, 1st Appeal of Right Appointed Counsel Sara
Roemaat went a head with raising the "Newly Discovered" Evidence
Issue provided by Shawnrell Simmions (App. E/3), which consisted of
his "Affidavit" Statement "That he was in jail with Julius Turner,
who testified against the defendant at his trial. Turner purportly
told Simmions that he did not want to testify becaues he did not see
who had shot the victim. That he only claimed to have done so, five
years after the incident

because he had been paid money to do so by
8.

victim Terry Bakers Family (App. E/2), and then took off back to
the State of Texas, hoping to avoid ever having to actually come
to court and testify to the lie he had told the police to earn the
money. The §974.02 Wis. Stats., Court Post-Conviction Judge without
any Evidentiary development opportunity granted in regard to this
Newly Discovered Evidence, by rote denied the Post-Conviction Motion
Issues related hereto (App. E/3-E/4), on October 04, 2013.
Defendant timely sought First Appeal of Right review litiga­
tion before the Wisconsin State Court of Appeals, District #1. Which
after Briefing by the interested parties, on September 30, 2014 ruled:
1.] Brooks' constitutional right to a speedy trial was not violated.
The threshold factor is the length of the delay from charging to
trial. The length of delay must be deemed "presumptively prejudiciald" before it is necessary to inquire into any other factors. Here,
the trial began less than seven months after the complaint was filed.
A delay of seven months is not presumptively prejudicial; 2.] Brooks'
second affidavit in support of his claim of newly discovered evidence
came from SJhawnrell Simmons, who was in the Milwaukee County Jail with
Turner. He averred that Turner told him he did not want to testify
because he "didn't even see his friend being murdered," but that he
accepted cash from someone to testify against two men. Turner alleg­
edly told Simmons he took the money and went back to Texas (App. F/2.
116 and F/4. 1110); 3.] Finally, the Court of Appeals
found in its September 30

District #1,

2014 Decision that, "Brooks contends his

trial counsel was ineffective for failing to subpoena Michael Hender­
son. Henderson was on the State's witness list and Brook's trial
counsel believed he could rely on the State's subpoena to produce
Henderson for trial." The State then was allowed to employ testimony
during the Post-Conviction process from Defendant Brooks Co-Defendant
9.

Maurice Stokes [Separate] Jury Trial, at which Michael Henderson
testified "He saw another person with "Reecereferring to Maurice
Stokes. The other person was caramel-skinned with braids. Based
upon this testimony that was never submitted to adversarial testing
by a Defense presentation of Defendant Brooks behalf, the Court of
Appeals concluded: "Henderson's testimony at Stokes' trial regard­
ing the caramel-skinned man with braided hair whose face was part­
ially obscured would not have excluded Brooks as the second shooter.
Because Brooks' motion provided no basis for believing that, had
his counsel subpoenaed Henderson, the result of the trial would
have been different, the court properly rejected Brooks' claim of
Ineffective assistance of trial counsel" (App. F/5).
Defendant 'Gyrus L. Brooks on October 24, 2014, timely filed
a Wisconsin Statute, Section §808.10 Jurisdictional, Appellate Rule
§809.62(1) Petition For Review of the State Court Of Appeals, Septem­
ber 30, 2014 Decision before the Wisconsin State Supreme Court, in
which he raised the Issue(s) of: 1.] In his brief-in-chief in the
court of appeals, defendant-appellant Cyrus Brooks alleged that his
speedy trial rights were violated and the balancing test taken as
a whole demonstrated that fact; 2.] Brooks presented two affidavits
from individuals which constituted Newly discovered evidence, and
asserted that the evidence fulfilled the four part test and had the
jury heard the newly discovered evidence, it would have had reason­
able doubt as to Brooks' guilt; and 3.] Brooks argued that he receiv­
ed ineffective assistance of counsel because his trial attorney fail­
ed to subpoena a witness that had originally testified at the pre­
liminary hearing that he did not see anybody besides Maurice Stokes
firing a gun during the shooting. The witness did not testify at
i

10.

Brooks

trial; instead, the court read his preliminary hearing testi­

mony to the jury (Even though said Preliminary hearing testimony was
never subject to meaningful cross examination by the defense).
On February 10 x 2015 the Wisconsin State Supreme Court during
this First Appeal of Right exhaustion litigation regarding these
Three(3) Claim(s) raised by State Public Defender Office appointed
Counsel, Sara Roemaat. Declined to exercise its Appellate Rule
§809.62(1) Discretionary Review authority over these Court of Ap­
peals, District #1, Relief Denied Issue(s) Address (Appendix - G).
Defendant Cyrus L. Brooks, then pro se, sought Wisconsin Statute,
Section §974.06 Wis. Stats., Collateral Post-Conviction Motion re­
view, of the Claim(s) and Issue(s) thereof, that Appointed First Ap­
peal of Right Counsel, Sara Roemaat, had refused to litigate, in
disregard to Defendants' [Explicit] Instruction/demand that she do
so, in order that said Issue(s) were not forfeited for his eventual
Federal 28 U.S.C. §2254 Petition For Writ Of Habeas Corpus litigation,
once Appointed Counsel was no longer providing Legal Assistance to
this Indigent Defendant, at the conclusion of the First Appeal of
Right review exhaustion (App. G); E.g. (App. G/l-G/5).
In this §974.06 Wis. Stats., Collateral Post-Conviction Motion
filing, Defendant submitted an Ineffective Assistance of Trial Coun­
sel Claim, raising the specific Issue(s) of: A.] Trial Counsel should
V'
Have Objected To The Prosecution Engagement Of A Ringer Medical Ex­
aminer To Submit The Autopsy Report and Cause Of Death Medical Con­
clusion of another [Former] Medical Examiner, that had worked at the
Examiner's Office Years Before the Ringer Examiner Was Hired To Work
For The County, And Which Submitted No Independent Findings Other Than
The Report of the Non-Appearing [Former] Medical Examiner which was
11.

never demonstrated to be unavailable to testify himself at the
trial proceeding of Defendant; B.] Trial Counsel Patrick Flanagan,
Failure To Investigate The Footprint [Forensic] Evidence that was
known to have been left by the Shooter of Victim Terry Baker, which
Would Have Demonstrated [Forensically] That Defendant Brooks' was
not the individual whom made these [Proper Shoe Size Wearing] Foot­
prints, in the hood and fender of the automobile that the shooter
ran across in existing the backyard where the shooting took place
and at next to a shell casing was also found (Appendix - H-H/2),
deprived Defendant of Supporting Exculpatory Evidence in Support of
the Impeachment Evidence provided by Shawnrell Simmions, regarding
the State Star Witness Julius Turner having been paid by the Victim
Terry Baker's Family to identify Cyrus Brooks as having been involved
in the shooting death of Terry Baker, since the Footprints demonstrate
that Cyrus L. Brooks could not have left them, they are way too big;
and C.] Trial Counsel failed to Appeal his [Brought] Preliminary
Hearing [Informant] Testimony, once it was discovered that the Act­
ing [Instead] Assistant District Attorney, Grant Huebner had pur­
chased said Informant Testimony to secure Defendant Cyrus L. Brooks
Bind Over for Trial on June 01, 2011, 1:30 P.M., Preliminary Hearing
proceeding testimony, and with=held information regard that [Deal]
from both the Court and Defense (Appendix - I), that he documented
Seven(7) Days Later.
The Milwaukee County Circuit Court upon its receipt of this
§974.06 Wis. Stats., Collateral Post-Conviction Motion, raising its
Sixth Amendment Claim(s), and related Issue(s) thereof on April 08,
2016. It was assigned before the Honorable J.D. Watts, Milwaukee
County Circuit Court Judge, Branch #15 (Appendix - J-j/5). On April
14, 2016, without allowance of any Evidentiary Development and Sup12.

porting Facts submission Evidentiary hearing opportunity. Further,
even though Pro Se [Prisoner] Petitioner explicitly raised as his
[Cause] demonstration, the showing that Defendant Brooks has Ordered
his First Appeal of Right Counsel, Sara Roemaat, to raise these issues
during the First Appeal of Right litigation undertaking, so that such
would be preserved for Defendants eventual pro se 28 U.S.C. §2254
Petition For Writ Of Habeas Corpus relief litigation submission, cit­
ing such cases as; Jones v. Barnes, 463 U.S. 745, 755, 103 S.Ct. 3308,
3315 (1983)(Justice BLACKMUN, concurring in the judgment)(“The attor­
ney, by refusing to carry out his client's expressed wishes, cannot
forever foreclose review of nonfrivolous constitutional claims.

♦ • •

"the remedy, of course, is a writ of habeas corpus. Thus, while the
Court does not reach the question, ante, at 3314 n.7, I state my view
that counsel's failure to raise oh appeal nonfrivolous constitutional
claims upon which his client has insisted must constitute "cause and
prejudice" for any resulting procedure default"")/(App. J/l).
The Seventh Circuit Court of Appeals, over the years has con­
tinuously acknowledged a showing of [Cause] in such situations of
Counsel's failure to raise claims which they had

been ordered to

raise by the Defendant during the First Appeal of Right representa­
tion undertaking;, Howard v. Gramley, 225 F.3d 784, 791 (7th Cir.
2000)("Howard's attorney chose to appeal only one issue in spite of
the fact that Howard himself had called counsel's attention to the
other points, the record supported an appeal on those points, and
Howard was not asking for an inordinate number of issues. We there­
fore have no cause to disagree with the district court's conclusion
that Howard has shown defective performance on the part of appellate
counsel"); Mason v. Hanks, 97 F.3d 887, 893 (7th Cir. 1996)("State
13.

Appellate Attorney's failure to raise preserved hearsay issue con­
stituted ineffective assistance of Appellate Counsel, mandating
federal habeas relief"); Freeman v. Lane, 962 F.2d 1252, 1259
(7th Cir. 1992)("We do not believe that counsel's performance can
be justified simply because the issue to be preserved may not be
vindicated until later stages of the appellate process. Even if
counsel will not--or need not--accompany the defendant on his
entire appellate journey, he may not strip the client of his only
viable argument before leaving the scene"). And finally concluding
with the citation of United States ex rel. Barnard v. Lane, 819 F.
2d 798, 805 (7th Cir. 1987)("The magistrate found, however, and we
agree, that failing to raise the issue amounted to ineffective
assistance of appellate counsel. This failure prevented Barnard
from obtaining a review on the claim in appellate court, a review
which, if unfavorable, could have been followed by a second review
in the Supreme Court of Illinois. As we have demonstrated, trial
counsel denied Barnard his Sixth Amendment right to effective assist­
ance of counsel by failing to advance Barnard's only defense. And
Appellate Counsel was equally ineffective in failing to raise the
issue for appellate review").
The Milwaukee County Circuit Court, Branch #15, the Honorable
J.D. Watt, on April 18, 2016 concluded, that "Both sec. 974.06(4),
Wis. Stats, and Escalona [State v. Escalona-Naranjo, 185 Wis.2d 169
(1994)] require a defendant to raise all issues in his or her origi­
nal postconviction motion or appeal. In addition, when arguing that
postconviction counsel was ineffective for failing to raise the
ineffectiveness of trial counsel, a defendant must demonstrate that
the claims he wishes to bring are clearly stronger than the claims
postconviction counsel actually brought. State v. Starks, 349 Wis.
14.
■

2d 274 (2013)*' / (App. J; J/l-J/5).
Defendant Cyrus L. Brooks, pro se, timely sought Appellate re­
view of the Circuit Courts, refusal to address the [Cause] and [Pre­
judice] Demonstration, based on Federal Procedural submission law
requirements that was submitted in the §974.06 Wis. Stats., Collat­
eral Post-Conviction Motion Pleading filed here. After Full Brief­
ing on this Xssue(s), with a finely detailed showing of what the
failed to raise Claim(s) and Issue(s) thereof, properly argued had
the frima facie potential to be developed into by competent counsel
(Appendix - K). The Court of Appeals, District #1 on August 03,
2017, Issued its Decision, wherein it declared: "Brooks contends
that he need not demonstrate that his current issues are "clearly
stronger" than the issues his postconviction counsdl pursued in
order to demonstrate that his postconviction counsel was ineffect­
ive. He argues that the "Iclearly stronger" test is not the only
means of establishing ineffective assistance of counsel. In sup­
port, Brooks cites federal case law setting forth the standard for
overcoming the procedural bar to obtain review in a federal habeas
corpus action. See, e.g., Freeman v. Lane, 962 F.2d 1252 (7th Cir.
1992)(petitioner not barred from Raising claims in federal habeas
corpus action despite failing to raise claims in earlier state ap­
peal; petitioner's direct appeal counsel was ineffective by failing
to raise issue in direct state appeal that warranted relief in feder­
al court). We are not persuaded. Our supreme court stated in RomeroGeorgana that the "clearly stronger" standard applies to claims of
ineffective assistance of postconviction counsel following a direct
postconviction motion. See Romero-Georgana, 260 Wis.2d 522, 1146 ("
The 'clearly stronger' standard is appropriate when postconviction
counsel raised other issues before the circuit court, thereby mak15.

ing it possible to compare the arguments now proposed against the
arguments previously made")* Then concluded with, "Nothing in the
federal cases that Brooks cites provides a different standard for
a Wis. Stat. §974.06 motion following an earlier direct postcon­
viction motion" / (Appendix - K/3-K/4).
Based upon this "Clearly Stronger" Stardard of Review [Only]
allowance, Defendants' Federal [Cause] and [Prejudice] Demonstration
was out and out disregarded by the Court of Appeals, in its "Pro­
cedural Default" review address of "Limited" consideration design
undertaking (App. K/4-K/7); Carter v. Douma, 796 F.3d 726, 734 (7th
Cir. 2015)("That more limited review is not a decision on the merits
that allows us to consider the claim on federal habeas review. See
Kaczmarek, 627 F.3d at 592; Gray v. Hardy, 598 F.3d 324, 329 (7th.
Cir. 2010); cf. Malone v. Walls, 538 F.3d 744, 756-57 (7th cir.
2008)(when state court makes clear that it is resolving a federal
issue despite procedural problems, federal courts can consider
merits). The state court that Carter was before concluded he was
not entitled to relief under any of these more limited forms of

*

relief"). Here, the Wisconsin State Court of Appeals, District #1,
concluded: "Because Brooks has not demonstrated that the claims in
his Wis. Stat. §974.06 motion were clearly stronger than the issues
raised in his first postconviction motion, Brooks has not shown that
his postconviction counsel was ineffective. Moreover, the facts set
forth in Brooks

motion do not establish that Brooks is entitled to

relief. Accordingly, the circuit court properly denied Brooks' mot­
ion without a hearing" / (App. K/7).
Defendant Cyrus L. Brooks, jaro s.e, in this §974.06 Wis. Stats.,
Collateral Post-Conviction motion Claim and Issue(s) thereof litiga16.

tion timely sought §808.10 Wis. Stats., Jurisdictional Review to
the Wisconsin State Supreme Court of the Court of Appeals, District
#1, August 03, 2017 Filed Decision (App. K), via a §809.62(1) Appel­
late Rule, Petition For Review. On November 13, 2017 the Wisconsin
State Supreme Court, declined to exercise its §809.62(1) Appellate
Rule, Discretionary Review authority over the §974.06 Wisconsin
Statutory, Collateral Post-Conviction Motion "Federal Constitutional"
Contained Issue(s) submission. Herein, arguing that the State's
"Operation" of the [Clearly Stronger] Test, as the only review
Standard open under Wisconsin State Law Precedent, regarding First
Appeal/Postconviction Counsel of Rights, failure to raise "Demanded"
Issue(s) of the Defendant (App. G/l-G/5), of State v. Romero-Georgana,
2014 WI 83, 360 Wis.2d 522, 849 N.W.2d 668 (Wis. 2014) current appli­
cation, was contrary to Federal Law as established by the United
States Supreme Court, regarding the [Cause and Prejudice] review
allowance design; Murray v. Carrier, 477 U.S. 478, 492, 106 S.Ct.
2639, 2647 (1986)("For the reasons already given, we hold that coun­
sel's failure to raise a particular claim on appeal is to be scruti­
nized under the cause and prejudice standard when that failure is
treated as a procedural default by the state courts"). Espically in
situations such as this, were [Exculpatory] Forensic Evidence was
never presented to the State Courts during the Trial and/or First
Appeal Of Right procedural undertaking(s) of Counsel Representation
exhaustion engagement (Appendix - L).
Boumediene v. Bush, 553 U.S. 723, 785, 128 S.Ct. 2229, 2270
(2008)("Court must have the authority to admit and consider relevant
exculpatory evidence that was not introduced during the earlier pro­
ceeding"). That indeed, this [Clearly Stronger] than only review al17.

lowance, was an unreasonable operation of the United States Supreme
Courts* long noted concern of such First Appeal Counsel Representa­
tion undertakings, depriving Defendants' of fundamentally fair re­
view undertaking^) of their Conviction(s) and Sentencing situat­
ions; Jones v. Barnes, 463 U.S. 745,

, 103 S.Ct. 3308, 3319,

77 L.Ed.2d 987 (1983)("I annot accept the notion that lawyers are
one of the punishments a person receives merely for being accused
of a crime. Clients, if they wish, are capable of making informed
judgments about which issues to appeal, and when they exercise that
prerogative their choice should be respected").
Conclusing with the material point, that it has long been
established that First Appeal undertakings, must be treated Equally,
between the Rich and the Indigent Defendant(s), as so noted by the
United States Supreme Court time and time again, with one of the
latest assertions thereof noted in Coleman v. Thompson, 501 U.S. 722,
773, 111 S.Ct. 2546 (1991)("Thus Court has made clear that the Four­
teenth Amendment obligates a State

tt i

to assure the indigent defen­

dant an adequate opporunity to present his claims fairly in the
context of the State's appellate process,

I It

Pennsylvania v. Finley,

481 U.S. 551, 556, 107 S.Ct. 1990, 1994, 95 L.Ed.2d 539 (1986),
quoting Ross v. Moffit, 417 U.S. 600, 616, 94 S.Ct. 1437, 1447, 41
L.Ed.2d 341 (1974)").
The Wisconsin State Supreme Court on November 13, 2017 decline
to exercise its §809.62(1) Discrestionary Review authority to address
these submitted important Federal Constitutional concerns raised by
the current allowed operation of its "Clearly Stronger" review Stand­
ard application upon all raised Not Raised During First Appeal/PostConviction Representation situations (Appendix - M). Thus, demon­
strating Pro £e Petitioner [Prisoner], Submission of this "Federal"
18.

Question before the State "Collateral" Post-Conviction Court review
as mandated by Federal Clearly established case law precedent here
on; Lee v. Davis, 328 F.3d 896, 901 (7th Cir. 2003)("There is one
preliminary puzzle we must examine before we proceed. The Supreme
Court's decision in Edwards v. Carpenter. 529 U.S. 446, 120 S.Ct.
1587, 146 L.Ed.2d 518 (2000), established that the assertion of
ineffective assistance as a cause to excuse a procedural default
in a §2254 petition is, itself, a constitutional claim that must
have been raised before the state court or be procedurally defaulted.
Id. at 453, 120 S.Ct. 1587").
Defendant Cyrus L. Brooks, timely sought 28 U.S.C. §2254 Peti­
tion For A Writ Of Habeas Courpus relief from the Federal District
Court in application of the One(l) Year Statute Of Limitation running
set forth in 28 U.S.C. §2244(d)(l)(A). This Timeliness of the §2254
Petition, from the November 13, 2017 Decision of the Wisconsin State
Supreme Court decision on Collateral Post-Conviction Motion litiga­
tion (App. M), was acknowledged by the State Attorney General Peti­
tion [Answer] Pleading filing on February 28. 2018. wherein it was
conceded: "Respondent concedes that Brooks' habeas corpus petition
was timely filed in this Court within the one-year limitations per­
iod specified by 28 U.S.C. §2244(d)(l)(A) / (Appendix: N-N/l).
Defendant as Ground Seven(7) of the §2254 Petition, as acknow­
ledged by the State Attorney General, raised the Issue of: "Respond­
ent denies that Brooks is entitled to relief on his claim that his
postconviction counsel was ineffective for failing to raise claims
"As Instructed To Do So By Defendant." (Dkt. 1:23). According to
Brooks, the standard is not "clearly stronger," but "cause and pre­
judice." (Dkt. 1:23) / (App. N/2-N/3).
After the Answer Filing by the Respondent, the Court permitted
19.

briefing on the Ground(s) of the §2254 Petition submission (App.
B/3-B/5) A. Right To Confrontation; (App. B/5-B/6) B. Ineffective
Assistance Of Counsel [1. Trial Counsel: B/6-B/8]; [2. Appellate
Counse: B/8-B/9] and (App. B/9-B/10) C. Evidentiary Hearing. At
Page #30 of the Brief-In-Support of the §2254 Petition, Pro Se
Petitioner Brooks, further argued that: "The Grounds/Issues Listed
In The §2254 Petition On Pages #9/D-9/L, Regarding Pro Se Litigants
Request For An Evidentiary Hearing And Documentation Of The Exhaust­
ion Of "Cause And Prejudice" Issue Before The State Courts §974.06
Motion Litigation Are Factually And Legal Case Law Supported Act­
uality In The Petition For Writ Of Habeas Corpus thereon. Further
Pointing out, that the "Cause And Prejudice" of the §974.06 Motion
Litigation, Is a Matter here od De Novo review, of the State Courts
refusal to actually address.
The United States District Court Judge, for the Eastern Dis­
trict Of Wisconsin, Northern Division, the Honorable William C.
Griesbach, on March 11, 2019, Only addressed the alleged "Merits" of
the Right To Confrontation Ground, Ineffective Assistance Of Counsel,
Trial and Appellate, which were clearly submitted to this District
Court [Only] in their Prima Facie Possibility demonstration, because
Petitioner had never been permitted a fundamentally fair opportunity
to establish their evidentiary support before the State Court(s) via
Evidentiary Hearing adversarial litigation thereof; United States v.
Nixon, 413 U.S. 683, 709, 94 S.Ct. 3090, 3108 (1974)("The develop­
ment need of all relevant facts in the adversary system is both
fundamental and comprehensive. The ends of criminal justice would be
defeated if judgments were to be founded on a partial or speculative
presentation of the facts. The very integrity of the judicial system
20.

and public confidence in the system depend on full disclosure of all
the facts, within the framework of the rules of evidence'*).
Relevant case law precedent, clearly acknowledges, "Where a
petitioner makes out a prima facie case under Strickland, a State
Court's summary denial of Ineffective Assistance of Counsel Claim
without an evidentiary hearing amounts to an unreasonable determina­
tion of the facts;11 Nunes v. Mueller, 350 F.3d 2045, 1054 (9th Cir.
2003). I.e., Hurles v. Ryan, 706 F.3d 1021, 1038-1040 (.9th Cir.
2013)("State's purported determination of the facts without a fair
opportunity for petitioner to present evidence violates AEDPA"), A
point of relevant fact the United States Supreme Court itself has
noted; District Attorney's Office v. Osborne, 557 U.S. 52, 70-72,
S.Ct.

_____ (2009)("Due Process affords a habeas corpus peti­

tioner the right to a fair opportunity in; State Court to discover
and present potentially exculpatory evidence that was not contained
in the record on direct appeal")/(App. H-H/2); i.e * 9 (App. L-L/l).
E.g., Boumediene v. Bush, 553 U.S. 723, 785, 128 S.Ct.*2229,
2270 (2008)("Habeas Corpus is a collateral process that exists to
cut-trough all forms and go to the very tissue of the structure. It
comes in from the outside, not in subordination to the proceedings,
and although every form may have been preserved opens the inquiry
whether they have been more than an empty shell"). The State Court
Review actuality here, represents all that is seriously wrong with
the Judicial System treatment of the Indigent in this Country, No
Chance to actually be heard on the merits of one's contentions,
to which under the "Fundamental Fairness" guarantee of this Nation's
Judicial process. For Words are Nothing, without acts in demonstration
of the treatment receipt alleged thereby; Townsend v. Sain, 372 U.S.
21.

293, 316, 83 S.Ct. 745 (1963)("Even if- all the facts relevant to
an accused's Constitutional rights were presented in a State Court
hearing, a Federal District Court is compelled to grant an evidenti­
ary hearing in habeas corpus proceedings instituted by a State pri­
soner where the factfinding procedure employed in the State Court
was not adequate for reaching reasonable correct results").
The relevant treatment involved here, demonstrates that the
Post-Conviction Courts' in the State of Wisconsin, are willing to
go so far, as to out and out impeach the Only Witness Testimony
placing the Defendant at the Crime Scene, to be able to claim the
after convicstibn proven exculpatory [Forensic] Footprint Evidence
irrelevant, by claiming, even though the Footprints are not defendan t s

as the State points out, the evidence at trial was that

there were two men with guns Brooks and Stokes, chasing Baker before
he was killed. Thus, evidence that the footprints did not belong to
Brooks would not have been exculpatory (App. K-/6). Yet, the States'
Star Witness testified at Trial, that it was Brooks that he personal­
ly witness shot the Victim [Terry Baker], then witness Brooks run
through the yard, after Terry lay on the ground from the received
Gun Shot from Brooks carried long gun. Thus, if it was not Brooks
that the States' Star Witness [Julius Turner] actually witness run
through this yard, as the Resident also testified to in collaboration,
that She only Witness One(l) Individual traverse her Backyard immedi­
ately after hearing the gun shot (App. H-H/l & H/2). Then his identifi­
cation of Defendant Cyrus L. Brooks as that individual was Flat Wrong,
for he explicitly testified that Maurice Stokes, was still over by
the Green Auto with the Gyn Shot Holes in it (App. J/4: "However,
even if he could show that the footprints did not match his feet,
it would not necessarily be exculpatory because there is not a rea22.

sonable proability that the outcome of the trial would have been
any different given the compelling testimony of the witnesses,
especially Julius Turner♦ " In the not to distant past, they called
this type of Fact-finding Justice, a Lynching; Murray v. Carrier,
477 U.S. 478, 501, 106 S.Ct. 2639, 2652 ("In Hensley v. Municipal
Court, 411 U.S. 345, 349-350, 93 S.Ct. 1571, 1573-1574, 36 L.Ed.2d
294 (1973), Jthe Court similarly emphasized this approach, stating:
"Our recent decisions have reasoned from the premise that habeas
corpus is not

a static, narrow, formalistic remedy,' Jones v. Cun-

ningham, [371 U.S. 236,] 243 [83 S.Ct. 373, 377, 9 L.Ed.2d 285][(1963)], but one which must retain the 'ability to cut through barriers
of form and procedural mazes.' Harris v. Nelson. 394 U.S. 286, 291,
89 S.Ct. 1082, 1086, 22 L.Ed.2d 281 (1969). See Frank v. Mangum. 237
U.S. 309, 346, 35 S.Ct. 582, 594, 59 L.Ed. 969 (1915)(Holmes, J.,
dissenting). 'The very nature of the writ demands that it be adminis­
tered with the initiative and flexibility essential to insure that
miscarriages of justice within its reach are surfaced and correct­
ed'. Harris v. Nelson, supra, 394 U.S., at 291

89 S.Ct.,- at 1086").

As has long been declared the fundamental promised of Article I.,
Section #9 Habeas Corpus design; Id., at 501 n.8: "See also Strick­
land v. Washington. 466 U.S. 668, 697, 104 S.Ct. 2052, 2069, 80 L.Ed.
2d 674 (1084)("fundamental fairness is the central concern of the writ
of habeas corpus"). Although a constitutional claim that may establish
innocence is clearly the most compelling case for habeas review, it is
by no means the only type of constitutional claim that implicates "fun­
damental fairness" and that compels review regardless of possible procedural defaults. See Rose v. Lundy. 455 U.S. 509, 543-544, 102 S.Ct.
1198, 1216-1217, 71 L.Ed.2d 279 (1982)(STEVENS, J., dissenting)"rIs
not this just such a case situation, fact finding developed out of the
23.

Thus, the District Courts "Finding of Fact& based upon the
State Courts' hypothesis of what may have, could have, been the
facts of the crime commission, cannot be permitted to become the
§2254 Review of the Indigent Class (App. B/8-B/9)/(App. H-H/l).
Further

this same "Sham" address by the Federal District

Court is present regarding the Prosecution use of a [Ringer]:
alleged Expert Witness, to employ for submission of the Records
of the Victim Terry Baker's Cause Of Death, Autopsy Records at
Trial. The True Facts that have yet to be actually developed in
a Court, via Evidentiary Hearing adversarial testing litigation.
Document that the Milwaukee County Assistant Medical Examiner that
actually executed the [Forensic] Autopsy on the Victim Terry Baker
[DOB: 05/27/1984] on October 30, 2005 (Appendix - 0), was Assistant
Medical Examiner K. Alan Stormo, M.D., with Amanda Arndt as his
Forensic Pathology Assistant (App. 0). That on September 27, 2011
Assistant District Attorney Denis J. Stingl filed a Statens Witness
List, where he listed Dr. Brian Peterson and Mark Simonson as the
Individuals that would be testifying the the Prosecution about the
Assistant Medical Examiner, K. Alan Stormo, M.D., Autopsy Report
execution, and Forensic Pathology Assistance provided therewith
(Appendix - P). Which ADA Denis J. Stingl additionally filed an
Notice Of Expert Testimony on, again setting down the Milwaukee
County Medical Examiner, Dr. Brian Peterson, as the individual
whom will testify to the autopsy and the contents of the written
autopsy protocol (Appendix - Q). With State Crime LaboratoryMilwaukee Analyst Mark Simonson, as the Analyst who will testify to
the findings in the crime lab pertaining to the above case (App. Q).
However, at the Trial, a different individual was called to the
Stand for the Prosecution,
an Individual whom had been trained in
.
24.

Poland, indeed, whom had received their Medical Education in
Poland, as well. It was additionally determined during this "Ringer"
Medical Expert, , Direct Examination, that she was not even employed
with the Milwaukee County Medical Examiner Office during October
2005, at the time of the Autopsy of Victim Terry Baker, thus, had
no personal knowledge of its Autopsy Procedures Operations during
the time of the Autopsy on Victim Terry Baker by the Medical Ex­
aminer Assistant K. Alan Stormo, M.D •

•

This point of material fact

was the only issue raised by Defense Counsel, Patrick Flanagan, dur­
ing his One(l) Page Cross-Examination of this "Ringer" Medical Ex­
aminer Assistant allowed to Testify for the Prosecution, even though
never identified as a Prosecution Witness (App. P), or as an Expert,
Medical Examiner Witness (App. Q).
The Testimony of Dr. Wieslawa Tlomak, additionally documented
that nNo" independent, Forensic Testing, Autopsy Examination Protocol
was personally executed by this individual, and that Dr. Tlomak's
sole source of information, was from the Autopsy Report and Mental
Impression Conclusion(s), that Medical Examiner Assistant K. Alan
Stormo, M.D., had created, thus, based on her review thereof, was
testifying to her "Independent" conclusion to the correctness of his
findings of the cause of death. I.e., to the Truth of his Reports
Forensic Generated Evidence Finding. The Circuit Court, therefrom,
permitted the Autopsy Report records created by Medical Assistant
K. Alan Stormo, M.D.

then to be entered into evidence, via the

testimony of this "Ringer" Medical Examiner Assistant "Expert" al­
leged "Independent" Findings, of which No Medical Records were gener­
ated.
Petitioner, before the Federal District Court, argued that this
25.

[Sophistical] "Ringer" Witness undertaking, in order to submit the
Autopsy Report material of the non-testifying Medical Examiner
Office, Assistant to the Jury, was "Contrary" to the clearly esta­
blished Federal Law as declared by the United States Supreme Court,
regarding a Defendants' Sixth Amendment "Confrontation" Clause pro­
tections reach regarding "Forensic Expert Witnesses," Testimony
underlying generation actuality; Williams v. Illinois, ___ U.S.
___, 132 S.Ct. 2221, 2233 (2012)("In Bullcoming, we held that anot­
her scientific report could not be used as substantive evidence
against the defendant unless the analyst who prepared and certified
the report was subject to confrontation.

• • •

Instead of calling the

analyst who signed and certified the forensic report, the prosecut­
ion called another analyst who had not performed or observed the
actual analysis, but was only familiar with the general testing
procedures of the laboratory. The Court declined to accept this
surrogate testimony, despite the fact that the testifying analyst
was a "knowledgeable representative of the Laboratory" who could
"explain the lab's processess and details of the report."

The

Court stated simply: "The accused's right is to be confronted with
the analyst who made the certification." Id. at ___, 131 S.Ct. 2705,
180 L.Ed.2d 610, 616").
Yet here, United States District Court Judge William C. Griesbach, in his March 11, 2019 (App. B).

Somehow came to the Legal

conclusion, of "In this case, Dr. K. Alan Stormo conducted an auto­
psy of Baker's body on October 30, 2005. Dr. Stormo retired prior to
trial, and the prosecution called Dr. Wieslawa Tloraak to testify
about Baker's cause of death at Brooks

trial. She testified that

it was her opinion, to a reasonable degree pf medical certainty,
that Baker's cause of death was gunshot wounds to his chest. Brooks
26.

i

asserts that his confrontation rights were violated because he
could not confront the medical examiner who performed the autopsy
(App. B/3-B/4). The District Court Judge then goes on to assert in
justification for this disregard of a Defendants

Sixth Amendment

Confrontation right entitlement, that "While Brooks relies on Bull­
coming to support his position that the prosecution was required
to call the analyst who created the autopsy report as a witness,
the testifying medical examiner here was more than a "surrogate"
witness. As the Wisconsin Court of Appeals explained, the testify­
ing medical examiner testified that she was a forensic pathologist
for the Milwaukee County Medical Examiner's Office and had performed
approximately 1,300 autopsies. She stated that she actively reviewed
Baker's file, including the autopsy report and photographs, and
reached her own 'independent opinions regarding Baker's cause of
death" (App. B/4-B/5).
If this is so, then where is her "Independent" Opinion gener­
ated Report Findings? Why was it necessary for the Autopsy Records
of the Non-Testifying Medical Ixaminer Assistant, K. Alan Stormo
to be the Entered into evidence Autopsy Records for the Jury to
base their Findings regarding the Cause of Death from? District
Court Judge William C. Griesbach, concluded with "I therefore can­
not say that the Wisconsin Court of Appeals unreasonably applied
clearly established federal law in concluding that Brooks was not
denied hir right to confrontation (App. B/5). Ykt^ the United
States Supreme Court holdings in such cases as Melendez-Biaz v.
Massachusetts, 557 U.S. 305, '318-319, 129 S.Ct. 2527 (2009), hold
to the "contrary;" ["The U.S. Constitution guarantees one way to
challenge or verify the results of a forensic test; confrontation.
The United States Supreme Court does not have license to suspend
27.

the Conforntation Clause when a preferable trial strategy is avail­
able"]. As the Court when speaking further hereon, pointed out,
Judge Griesbach appears to disagree; "In short, under our decision
in Crawford the analysts' affidavits were testimonial statements,
and the analysts were "witnesses" for purposes of the Sixth Amend­
ment. Absent a showing that the analysts were unavailable to testify
and that petitioner had a prior opportunity to cross-examine them,
petitioner was entitled to "be confronted with" the analysts at
trial. Crawford, supra, at 54, 124 S.Ct. 1354, 158 L.Ed.2d 177"..
Thus, here for the District Court Judge, to issue a pre-emptive
strike against Petitioner Request for the Issuance of a Certificate
of Appealability, against this conclusion of the District Court
(App. B/10), where at he held: "A certificate of appealability will
be denied. I do not believe that reasonable jurists would believe
that Brooks has made a substantial showing of the denial of a con­
stitutional right". Renders this §2254 Petition litigation review,
nothing more than meaningless poetry, especially, when the Courts
mind is made-up even before the Petitioner even submits a Request
for the Issuance of a Certificate Of Appealability on the Claim;
DeiVecchio v. Illinois Dept. Of Corrections, 8 F.3d 509, 514-515
(7th Cir. 1993)("The Supreme Court has repeatedly answered this very
question by noting that the'; appearance of justice is as important as
the reality of justice, or at least important enough that its absence
violates due process"). I.e., Buck v. Davis, ___ U.S.

___ *

___ , 137

S.Ct* 759, 774 (2017)(""[A] claim can be debatable even though every
jurist of reason might agree, after the COA has been granted and the
case has received full consideration, that petitioner will not pre­
vail." Miller-El. 537 U.S., at 338, 123 S.Ct. 1029

154 L.Ed.2d 931.

The statute sets forth a two-step process: an initial determination
28.

whether a claim is reasonably debatable, and then—if it is--an
appeal in the normal course. We do not mean to specify what pro­
cedures may be appropriate in every case. But whatever procedures
are employed at the COA stage should be consonant with the limited
nature of the inquiry”). What we have here, is almost identical to
the Fifth Circuit, Decision included "Certificate" Denial language,
that failed to represent an independent review of the COA Review
Standard actuality; "The court below phrased its determination in
proper terms--that jurists of reason would not debate that Buck
should be denied relief, 623 Fed.Appx., at 674--but it reached that
conclusion only after essentially deciding the case on the merits.”
Id. 137 S.Ct., at 773. However, as is clearly established, the
Receipt of the Certificate Of Appealability, is based on the Stand­
ard of whether or not a reasonable jurist could find the dispute
debatable; Roberts v. Dretke, 356 F.3d 632, 637 (5th Cir. 2004)
("Roberts can make such a showing if he demonstrates that "reason­
able jurists would find the district court's assessment of the
constitutional claims debatable or wrong.” Slack v. McDaniels,
529 U.S. 473, 484, 120 S.Ct. 1595, 146 L.Ed.2d 542 (2000). "The
question is the debatability of the underlying constitutional claim,
not the resolution of that debate." Miller-El, 537 U.S. at 342. To
obtain a COA on any aspect of his ineffective assistance claim which
the district court found to be procedurally barred, Roberts must
show not only that jurists of reason would find it debatable whether
the petition states a valid claim of the denial of a constitutional
right, but also that jurists of reason would find it debatable whet­
her the district court was correct in its procedural rulings as to
those claims. Slack, 529 U.S. at 484")/(App. B/10). Where is the full
and fair opportunity for the Request for that Certificate Of Appeal29.

•*
\

ability, via setting forth the relevant "Debatable1’ position of
the Petitioner, if the District Court has already Made-Up its
Mind to attempt to prevent meaningful appellate review litigation
on the alleged "Merit" conclusions) of the District Court Judge;
DelVecchio v. Illinois Dept. Of Corrections, 8 F.3d 509, 514 (7th
Cir. 1993)("Suggestions of judicial impropriety always receive our
highest attention because they undermine respect for law").
The factual record here documents, that Pro Se [Prisoner]
Petitioner, Cyrus L. Brooks, timely Requested the Issuance of a
Certificate Of Appealability from the Seventh Circuit Court of
Appeals, Circuit Judge, that in the Thirty-Five(35) Page Request
Pleadings, Petitioner-Appellant, at Pages #5-9, submitted his
Request for a COA to Ground One of the §2254 Petition Issue of:
"Defendant was denied his Sixth Amendment "Confrontation" Rights
To Face His Criminal Act "Homicide" Accuser, Milwaukee County
■r <

Medical J|x2troiner Assistant, Dr. K. Alan Stormo, Regarding his
to a Medical Certainty Findings Entered Into Evidence At Trial,
That The Death Of Terry J. Baker was the direct result of a 30-30
Rifle Shot." As well at Pages #9-19 Request Pleading Sought COA
to Ground Two of the §2254 Petition: "Defendant was denied his
Sixth Amendment right to effective assistance of Privately Re­
tained Defense Counsel at Trial, via the Failure of Attorney
Patrick Flanagan to have the only possible Exculpatory Forensic
Evidence, Independently tested in order to show that it could not
have been Defendant Brooks whom the Only Eye-Witness, Julius Turner
for the Prosecution, positively identified fired the shot from the
long gun that caused the Death of Victim Terry Baker, then witness
Defendant Brooks exit the crime scene via the path that the Foot­
prints and Shell Casings were recovered from (App. H-H/l & H/2).
30.

Further

at Pages #19-26 of the Request For The Issuance of

a Certificate Of Appealability filed to the Seventh Circuit Court
of Appeals, Circuit Judges, as Ground Three, Petitioner submitted
the debatable Issue of: "Defendant was denied Effective Assistance
of First Appeal of Right, Post-Conviction §974.02 W&s. Stats., and
§809.30 Appeal Of Right Litigation Counsel Assistance, by State
Public Defender Office appointed Attorney Sara Roemaat's "Amateur­
ish" submission of the Newly Discovered "Impeachment Evidence" of
State Julius Turner's admission to Shawnrell Simmions

that he had

been paid by the victim Terry Baker's Family to identify defendant
Cyrus L. Brooks as the individual that had caused the death of Terry
Baker, after the Police could not make a case against anyone Five
Years after Terry Baker's death". Additionally, as Ground Four of
the Request For The Issuance Of A Certificate Of Appealability,
at Pages #26-31, "Defendant argued was debatable, that he was denied
his Sixth Amendment Right of Effective Assistance of Trial Counsel,
via Attorney Patrick Flanagan's failure to "Subpoena [Exculpatory]
Witness Michael Henderson," to testify for the Defense at Trial.
But instep relied on the Prosecutor to subpoena him for his [In­
culpatory] testimony against the Co-Defendant Maurice Stokes. Which
the Prosecutor did not do, but instead secured a day of trial sever­
ance of the trial(s) of Defendant Brooks and Co-Defendant Maurice
Stokes.
Finally, Petitioner Cyrus L. Brooks, sought the Issuance of
a Certificate Of Appealability, on Ground Six of the §2254 Petition
at Pages #31-34, where at, it was argued debatable whether or not;
"Defendant was denied a Fundamentally Fair Opportunity at the Cir­
cuit Court level of the Milwaukee County Circuit Court, during First
Appeal of Right, §974.02 Wis. Stats., Post-Conviction Motion Issues
31.
\

litigation supporting Evidentiary development sought opportunity,
regarding Grounds #3 and #4 of the §2254 Petition Submission. As
well denied the same full and fair supporting evidentiary develop­
ment in regard to Grounds #1 and #2 of the Pro Se §974.06 Wis. Stats.,
Collateral Post-Conviction Motion Issue(s) Submission. Thus, the
State Court Position that Only the "Stronger Than'1 Teview Standard
Is allowed under State Law, "Sufficient Reason" Showing requirement,
that Federal Law "Cause and Prejudice" Allowed Standard greater
"Cause" allowance is not applicable to Defendants' in the State of
Wisconsin. Renders Wisconsin Collateral Review "Pretextual" in its
application to such raised Federal Constitutional litigation exhaust­
ion undertakings.
The United States Court of Appeals, for the Seventh Circuit on
November 25, 2019 Submitted the Request For A Certificate Of Appealability Issuance From A Circuit Judge to the Circuit Judges of Diane
P. Wood, Chief Judge and Michael S. Kanne, Circuit Judge. On the 3rd
of December, 2019 they issued a One(l) Page, One(l) Paragraph, PostCard Order; holding: "Cyrus Brooks has filed a notice of appeal from
the denial of his petition under 28 U.S.C. §2254 and an application
for a certificate of appealability. We have reviewed the final
order of the district court and the record on appeal. We find no
substantial showing of the denial of a constitutional right. See
28 U.S.C. §2253(c)(2). Accordingly, the request for a certificate
of appealability is DENIED" (App. A).
This Post-Card" One(l) Paragraph "Rote" Assertion of Review
by the Seventh Circuit Court of Appeals, Chief Judge and Circuit
Judge undertaking, fails to Satisfy The Appearance of Justice. How
did the Two(2) Named Circuit Judges (App. A), reach the conclusion
that the detailed and Case Law Supported "Debatabiiity" of the Pro
32.

Se Issue(s) that

Certificate Of Appealability was sought on,

were not debatable? That despite the Case Law of Federal Judge(s),
Demonstrating the [Debatability] operative actuality of Judge
William C. Griesbach's Decision asserted conclustion, that no
reasonable jurist could find against his conclusion of no such
debatability, included in his March 11, 2019 Decision (App. B/10).
How did the Seventh Circuit Court Of Appeals, Chief Judge Diane P.
Wood, and Circuit Judge Michael S. Kane, Find to the contrary?
Joint Anti-Fascist Refugee Committee v. McGrath, 341 U.S. 123,
171-172, 71 S.Ct. 624, 95 L.Ed. 817 (1951)("Franfurter, J., Concur)(Validity and moral authority of a conclusion largely depend
on the modes by which it was reached). I.e., Hill v. Mississippi
State Employment Service, 918 F.2d 1233, 1241 (5th Cir. 1990)(HWe
must be sure that the courts dubious explanatory language does not
generate a later, ill-conceived concurrence with fallacy")/(App. A).
BASIS FOR FEDERAL JURISDICTION
This case raises a question regarding the fundamentally fair
application of 28 U.S.C. §2253(c)(l) and (2) operation(s) by the
Court Of Appeals, that appear possibly violative of the Due Process
Clause of the Fifth and Fourteenth Amendment's}! to the United States
Constitution. The District Court had jurisdiction under the general
federal question jurisdiction conferred by 28 U.S.C. §1331.
REASONfS] FOR GRANTING EXTRAORDINARY WRIT
UL the [District] Court denies a Certificate Of Appealability,
the Parties may not appeal the denial but may seek a Certificate Of
[Appealability] from the Court Of Appeals under Federal Rule of
Appellate Procedure, Rule 22; Black v. Davis, 2018 U.S. App. LEXIS
25200*6 (5th Cir. Sept. 05, 2018). This review undertaking, is many
things to many individual judge(s) it appears. Thus, this United
33.

States Supreme Court has in several review undertaking(s) attempted
to establish a reasonable procedural operation for protection of
minimum Procedural Due Process inquiry needs, establishing the
fundamental operation of 28 U.S.C. §2253(c)(l) to hold; "We reiter­
ate what we have said before: "A 'Court Of Appeals should limit its
examination [at the COA stage] to a threshold inquiry into the under­
lying merit of [the] claims,

and ask 'only if the District Court's'

decision was debatable.' Miller-El. 537 U.S., at 327, 348, 123 S.Ct.
1029, 154 L.Ed.2d 931 mi ; Buck v. Davis, ___ U.S.

___, 137 S.Ct.

759, 774 (2017). Then going on to qualify that undertaking by noting;
"We do not mean to specify what procedures may be appropriate in
every case. But whatever procedures are employed at the COA stage
should be consonant with the limited nature of the inquiry." Id.
The Federal Courts over the last 25-Years since the Antiterror­
ism and Effective Death Penalty Act (AEDPA) passage, have pointed
out, that In order to obtain a Certificate Of Appealability, the
petitioner must make a "substantial showing of the denial of a
Constitutional right." 28 U.S.C. §2253(c)(2). However, the Courts
have made clear, the petitioner need not show that he should have
prevail on the merits, Lambright v. Stewart, 220 F.3d 1022, 1025
(9th Cir. 2000)(en banc)(" • • • (O)bviously the petitioner need not
show that he should prevail on the merits. He has already failed in
that endeavor"). Rather, the petitioner is merely required to make
the "modest" showing, that 'reasonable jurists would find the dis­
trict court's assessment of the constitutional claims debatable or
wrong;' Slack v. McDaniel, 529 U.S. 473, 484, 120 S.Ct. 1595 (2000).
Indeed, as explained by the Ninth Circuit in Jennings v. Woodford.
290 F.3d 1006 (9th Cir. 2002), the substantial showing standard required for a Certificate Of Appealability is [relatively] low. Id.
34.

The Ninth Circuit Court of Appeals, in Jennings, 290 F.3d at
{1011], citing Slack, supra. Held, a COA must issue if any of the
following apply: (1) the issues are debatable among reasonable jur­
ists; (2) another court could resolve the issues differently; or
(3) the questions raised are adequate enough to encourage the peti­
tioner to proceed further. Finally, it was pointed out, that "The
court must resolve doubts about the propriety of a Certificate of
Appealability in the petitioner's favor. Jennings, supra, citing
Lambright, supra, at 1025. Here, the Seventh Circuit Court of

Ap­

peals, Chief Judge Diane P. Wood and Circuit Judge Michael S. Kanne
"Rote" Review decision, wholly fails to meet this fundamental en­
titlement; Schact v. Wis. D.O.C., 175 F.3d 497, 502 (7th Cir. 1999)
("One of the most basic guarantees of fair procedure is an unbiased
decisionmaker. E.g., Goldberg v. Kelly, 397 U.S. 254, 271, 90 S.Ct.
1011, 25 L.Ed.2d 287 (1970); Wong Yang Sung v. McGrath, 339 U.S. 33,
50, 70 S.Ct. 445, 94 L.Ed. 616 (1950). This does not necessarily
mean a decisionmaker who knows nothing of the facts,

• * •

But it does

imply honesty in the process. Cf. Withrow v. Larkin, 421 U.S. 35, 47,
95 S.Ct. 1456, 43 L.Ed.2d 712 (1975)"). Where is that honesty in the
process undertaken here (App. A)?
The Importance of the Question raised here, addresses the very
underpinning(s) of Procedure Due Process. It has long been acknow­
ledged in law, that it is "Incumbent upon the court to form its
independent judgment after a review of the record and pleadings and
to support its decision by written opinion. Indeed, This intrinsic
value in the concept of due process is of great importance, in light
of the fact that "At stake here is not just the much-acclaimed appearance of justice but, from a perspective that treats process as
intrinsically significant, the very essence of justice;" L. Tribes,
35.

American Constitutional Law 503 (1978).
Thus, the One(l) Paragraph Rote Conclusion issued here, in
address to a detailed Thirty-Five(35) Page Request For the Issuance
of A Certificate Of Appealability from the Circuit Judges, in ad­
dress to the District Courts, Pre-emptive Denial of The Issuance Of
a Certificate Of Appealability, contained in its Decision Denying
§2254 Petition Relief Review actuality on the Merits once developed
via Evidentiary Hearing procedural litigation allowance, that had
been denied the Pro Se [Prisoner] Litigant at the State Courts Col­
lateral Post-Conviction Level Review litigation, does not meet this
entitil¥d^>Fundamental Fair Procedural Review actuality; Finney v.
Mabry, 455 F;Supp. 756, 776-777 (E.D. Ark. 1978)("The contention
that the rote recitation of shorthand phrases may sufficiently meet
these important interests of constitutional magnitude is plainly
erroneous*1). As the Finney Court went on to point out, I believe
is fitting to this current similar practice regarding Denial(s) of
Certificate Of Appealabilities, via such Shorthand phrases employ­
ment; where the District Court asserted: "Although the Supreme Court
has recently tended to emphasize only the utilitarian value of using
certain procedures (the insuring of the accuracy of a governmental
decision or action), nevertheless there remains a profound value in
the concept of due process that is an expression of the very rule of
law, the intrinsic value in the Appearance of Justice." Id. 455 F.
Supp. at 777.
The importance of this concern, was additionall expressed by
the Federal District Court in another highly charged case review
situation in United States v. Clary, 846 F.Supp. 768, 782 n.43 (E.
D. Mo. 1994)("Unconscious prejudice presents an additional problem
in that it is not subject to self-correction within the political
36.

process ... when the discriminator is not aware of his prejudice
and is convinced that he already walks in the path of righteousness,
neither reason nor moral persuasion is likely to succeed, the pro­
cess defect is all the more intractable, and scrutiny becomes im­
perative"), rev'd on other grounds, ___ F.3d _____ (8th Cir. 1995)/
(App. B/10 and App\ A).
As this United States Supreme Court pointed out in Caperton v.
A.T. Massey Coal Company, Inc., "The judge inquires into reasons
that seem to be leading to a particular result. Precedent and stare
decisis and the tbxt and purpose of the law and the Constitution;
logic and scholarship and experience and common sense; fairness and
disinterest and neutrality are among the factors at work. Id. 556
U.S. 868, 883, 129 S.Ct. 2252, 2263 (2009)." This actuality is with­
out question, missing in the rote review undertaken here by both the
District Court on March 11, 2019 (App. B/10), as well the Court Of
Appeals on December 03, 2019 (App. A).
REASON[S] FOR THE EXTRAORDINARY WRIT REMEDY
This Petition For An Extraordinary Writ [Supervisory] Over­
view addrss, pursuant to this Court's authority under 28 U.S.C.
§1651(a), presents to this United States Supreme Court, a prime
example of just what the [Safety-Value] of being able to Request
A Certificate Of Appealability from the Court Of Appeals, Circuit
Judge(s), was not meant to evolve into; United States v. Jannotti,
673 F.2d 578, 615, 616 (3rd Cir. 1982)("I Reject this process, whet­
her one calls it Begriffsjurisprudenz, mechanical jurisprudence, or
slot machine justice. I believe that the proper test of a legal rule
is the extent to which it contributes to the establishment and pre­
servation of a social environment in which "the quality of human life
can be spirited, improving and unimpaired;" and that law must be judg37.

ed by the results it achieves

not by the niceties of its in­

herent structure. "It must be valued by the extent to which it
meets its end, not by the beauty of its logical processes or the
strictures with which its rules proceed from the dogmas it takes
for its foundation. Pound, Mechanical Jurisprudence, 8 Colum L. Rev.
605 (1908)").
Without the availability of authority to Appeal a District
Courts, Denial of Issuance of a Certificate Of Appealability;
Black v. Davis, 2018 U.S. App. LEXIS 25200*6 (5th Cir. Sept. 05,
2018). But is limited to seeking the Issuance of a Certificate Of
Appealability from the Circuit Judge(s) of the Court Of Appeals
itself. Leaves only such Extraordinary Writ Relief pursuit avail­
ability for address of procedural due process shortcomings in that
last level of Request allowance under 28 U.S.C. §2253(c)(l) and (2)
procedural exhaustion; Roberts v. Dretke, 356 F.3d 632, 637 (5th
Cir. 2004)("Before Roberts can appeal the district court's adverse
judgment, he must first obtain a COA. 28 U.S.C. §2253(c)(l); see
Miller-El v. Cockrell. 537 U.S. 322, 336, 123 S.Ct. 1029, 154 L.Ed.
2d 931 (2003)(explaining that a COA is a "jurisdictional prerequisi­
te" without which "federal courts of appeals lack jurisdiction to
rule on the merits of appeals from habeas petitioners").
Since here

the Court Of Appeals, Chief Judge Diane P. Woods,

and Circuit Judge Michael S. Kanne (App. A), acknowledge that their
review was primarily of the District Courts Decision (App. B-B/10),
and the Record on appeal, which was the barest of the bare, since
the District Court had never sent up the Case File/Docket Record of
the §2254 Petition Litigation before the District Court, it would be
all but impossible

for these Circuit Judge's to conclude the Thirty-

Five(35) Page Request For The Issuance Of A Certificate Of Appeal38.

ability, failed to submit a substantial showing of the denial of
a Constitutional Right; Richardson v. Superintendent Coal Twp. SCI.,
2018 U.S. App. LEXIS 27892*23 (3rd Cir. 2018)("In other words

he

must show that "the claim has some merit,"! as required for a certi­
ficate of appealability. Id. A claim has merit so long as "reason­
able jurists could debate" its merits, or it "deserve[s] encouragement to proceed further." Preston. 2018 U.S. App. LEXIS 25151, 2018
WL 4212055m at *8 (quoting Miller-El v. Cockrell

537 U.S. 322, 336,

123 S.Ct. 1029, 154 L.Ed.2d 931 (2003))"). How was that actuality
reached here (App. B/10) and (App. A); United States v. Jannotti,
673 F.2d 578

614-611? (3rd Cir. 1982)("A free society can exist

only to the extent that those charged with enforcing the law re­
spect. it themselves. "There is no more cruel tyranny than that which
is exercised under cover of the law, and with the colors of justice"").
CONCLUSION
For the foregoing reason, Extraordinary Writ should be Granted
in this Denial Of The Issuance Of A Certificate Of Appealability
Situation. Requiring the Seventh Circuit Court Of Appeals, Chief
Judge Diane P. Wood, and Circuit Judge Michael S. Kanne

to address

each Ground Raised in the Request For The Issuance Of A Certificate
Of Appealability from the Circuit Judge, in their Individual sub­
stantial showing presentation, and provide a Decisional address of
the Court’s individualized Findings Under Color of Law; Schenck v.
United States, 249 U.S. 47, 52, 39 S.Ct. 247, 249, 63 L.Ed.2470
(1919)("The character of every act depends upon the circumstances
in which it is done").
Dated this ^tsV day of March, 2020. Fox Lake; Wisconsin.
Respectfully Filed By:
Oscar B. McMiIlian #042747
Portage; Wisconsin. 53901

Cyrys Linton Brooks
39.

#3S6756-A

